     !','e:l\..ic£,
                                  DEPARTMENTOF
                                             OFHEALTH
                                                HEALTH&& HUMAN
                                                         HUMANSERVICES
                                                               SERVICES                                                        Offce
                                                                                                                                OfficeofofInspector
                                                                                                                                           InspectorGeneral

(-tt.                             DEPARTMENT                                                                                                         General


'ò ~
~~
 4'11".Jl'lo'd3.Q                                                                                                              Washington,
                                                                                                                                Washington. D.C.
                                                                                                                                             D.C. 20201
                                                                                                                                                   20201



                                                                                          AUG 112
                                                                                          AUG      2009
                                                                                                2 2009



                      TO:
                      TO: Margaret A. Hamburg,
                                Margaret          M.D.
                                         A. Hamburg, M.D.
                                             Commissioner
                                             Commissioner
                                             Food and
                                             Food and Drug
                                                      Drug Administration
                                                           Administration


                      FROM: Daniel
                      FROM:    DanielR.               c/J)f?L
                                         Levinson cÀc/;
                                      R. Levinson         J)L
                 o/j!;
                                             Inspector General
                                             Inspector General


                      SUBJECT:
                      SUBJECT: Review of 

                                              Review of the
                                                        the Food and Drug
                                                            Food and Drug Administration's
                                                                           Administration's Monitoring
                                                                                            Monitoring oflet
                                                                                                       of Pet Food
                                                                                                              FoodRecalls

                                                                                                                   Recalls
                                              (A-01-07-01503)
                                              (A-01-07-01503)


                      The attached final report provides the results of our review of the Food and
                      The attached final report provides the results of our review of 

                                                                                                                         Administration's
                                                                                                               and Drug Administration's
                      (FDA)       monitoring    of pet   food     recalls.     The
                                                   pet food recalls. The Chairman of
 Chairman of the Senate
                                                                                                      Senate Committee
                                                                                                             Committee on Agriculture,
                      (FDA) monitoring of 

                      Nutrition, and
                      Nutrition,       and Forestry
                                            Forestry requested
                                                      requested this   this review.
                                                                              review.

                      When aa problem
                      When      problem arises
                                         arises with
                                                with aa particular food, the
                                                        paricular food,   the manufacturer
                                                                              manufactureror  or importer
                                                                                                  importerisis responsible
                                                                                                                responsible for
                                                                                                                              for
                      voluntarily  recalling the product,  and  FDA   works   with  the  firm to develop   and   oversee
                      voluntarily recalling the product, and FDA works with the firm to develop and oversee a recall      a  recall
                      strategy.  FDA established
                      strategy. FDA    established regulations
                                                    regulations (21
                                                                 (21 CFR
                                                                      CFR part
                                                                            part 7)
                                                                                 7) as
                                                                                     as nonbinding
                                                                                        nonbinding guidance
                                                                                                      guidance (referred
                                                                                                                  (referred to
                                                                                                                            to as
                                                                                                                                as
                      "recall guidance")   that FDA   and the  recalling firm  should    consider  in planning
                      "recall guidance") that FDA and the recalling firm should consider in planning and         and
                      implementing
                      implementing aa recall.
                                        recall.

                      From
                      From MarchMarch 16   16 toto April
                                                    April 26, 26, 2007,
                                                                    2007, firms
                                                                           firms initiated
                                                                                  initiated and
                                                                                             and FDA
                                                                                                 FDA oversaw
                                                                                                        oversaw] 166 Class
                                                                                                                     Class II recalls
                                                                                                                               recalls of
                                                                                                                                       ofpet
                                                                                                                                           pet food
                                                                                                                                               food
                      contaminated
                      contaminated with      with melamine.
                                                     melamine. Three    Three recalls
                                                                              recalls by
                                                                                       by one
                                                                                          one manufacturer,
                                                                                                manufacturer, Menu    Foods Limited
                                                                                                                Menu Foods                (Menu
                                                                                                                                Limited (Menu
                      Foods),      accounted        for   approximately
                      Foods), accounted for approximately 89 percent of 

                                                                               89 percent   of the
                                                                                               the products
                                                                                                   products  in
                                                                                                            in  the
                                                                                                                the 16
                                                                                                                    ]6  recalls.
                                                                                                                       recalls.    Our  review
                      focused
                      focused on    on one
                                         one small
                                               small recall
                                                         recall each
                                                                   each byby an
                                                                             an import
                                                                                import firm
                                                                                         firm and
                                                                                               and an
                                                                                                    an import
                                                                                                       import broker
                                                                                                               broker and
                                                                                                                       and on
                                                                                                                            on the
                                                                                                                                 the three
                                                                                                                                     three Menu
                                                                                                                                            Menu
                      Foods      recalls.
                      Foods recalls.

                      Our     objective was to determine (1) what authority FDA has with respect to recalls of pet
                       Our objective was to determine (1) what authority FDA has with respect to recalls of 

                                                                                                                                         pet food
                                                                                                                                             food
                      and
                       and (2)(2) what
                                   what procedures
                                            procedures FDA     FDA has  has developed
                                                                              developed to      to implement   its authority,
                                                                                                    implement its  authority, whether
                                                                                                                              whether FDA
                                                                                                                                      FDA followed
                                                                                                                                          followed
                      its  procedures,         and    whether       the   procedures
                       its procedures, and whether the procedures were adequate.             were    adequate.

                      The results of
                      The results of our
                                     our audit
                                         audit follow:
                                               follow:

                            •. FDA
                                FDAdoes doesnot
                                              nothave
                                                  havestatutory
                                                         statutoryauthority
                                                                    authoritytotorequire
                                                                                   requiremanufacturers
                                                                                           manufacturers to
                                                                                                          to initiate
                                                                                                              initiate pet
                                                                                                                       pet food
                                                                                                                           food
                                recalls.
                                 recalls. Therefore, thethe initiation of
                                                                       of such
                                                                           such recalls
                                                                                  recalls on
                                                                                          on the
                                                                                             the part ofmanufacturers
                                                                                                 par of manufacturers or or importers
                                                                                                                             importers
                                isis voluntary.  Furthermore,    FDA    issued  its regulations  as nonbinding   recall
                                     voluntary. Furthermore, FDA issued its regulations as nonbinding recall guidance.  guidance.
                                 Even ifif FDA
                                Even       FDA were
                                                  were to
                                                        to require
                                                           require firms
                                                                    firms to
                                                                           to follow
                                                                              follow certain
                                                                                      certain procedures,  FDA has
                                                                                               procedures, FDA         no statutory
                                                                                                                  has no  statutory
                                authority
                                  authoritytotoassess
                                                assesspenalties
                                                        penaltiesfor
                                                                   forrecall
                                                                       recallviolations.
                                                                               violations. However, when FDA believes that    that an
                                                                                                                                   an
Page 2 – Margaret A. Hamburg, M.D.


       article of food presents a serious health threat, the Public Health Security and
       Bioterrorism Preparedness and Response Act of 2002 provides additional authority to
       FDA to administratively detain food and obtain certain food records. Several bills
       proposed in the 110th session of Congress would have provided FDA with authority to
       mandate recalls and to dictate and enforce the terms of a recall.

   •   FDA has developed procedures for monitoring recalls and assessing a firm’s recall
       effectiveness. The procedures cover, among other activities, reviewing the firm’s recall
       strategy and recommending changes, inspecting the firm, conducting audit checks at
       selected distributors and retailers, and reviewing the firm’s status reports and assessing
       the results of the firm’s effectiveness checks of distributors and retailers as shown in the
       status reports. Although FDA’s oversight of the two small pet food recalls by an import
       firm and an import broker was generally adequate, FDA did not always follow its
       procedures in overseeing the Menu Foods recalls. Furthermore, FDA’s procedures were
       not always adequate for monitoring recalls as large as those of Menu Foods.

The ultimate responsibility for removing the contaminated pet food rested with Menu Foods and
its distributors and retailers. Nevertheless, FDA’s lack of authority, coupled with its sometimes
lax adherence to its recall guidance and internal procedures and the inadequacy of some of those
procedures, limited FDA’s ability to ensure that contaminated pet food was promptly removed
from retailers’ shelves.

Our report contains detailed recommendations for strengthening FDA’s recall authority and
improving its effectiveness in monitoring food recalls.

In comments on our draft report, FDA agreed or agreed in principle with all of our
recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-01-07-01503 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THE FOOD AND DRUG
ADMINISTRATION’S MONITORING
    OF PET FOOD RECALLS




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-01-07-01503
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Food and Drug Administration (FDA) is responsible for safeguarding the Nation’s food
supply, including food given to animals. When a problem arises with a particular food, the
manufacturer or importer is responsible for voluntarily recalling the product, and FDA works
with the firm to develop and oversee a recall strategy. FDA established regulations (21 CFR
part 7) as nonbinding guidance that FDA and the recalling firm should consider in planning and
implementing a recall. This report refers to these regulations as “recall guidance.”

From March 16 to April 26, 2007, firms initiated and FDA oversaw 16 Class I recalls of pet food
contaminated with melamine, an unapproved substance. FDA designates a recall as Class I when
it believes that the product being recalled presents a high health hazard. Three recalls by one
manufacturer, Menu Foods Limited (Menu Foods), accounted for approximately 89 percent of
the products in the 16 recalls. Menu Foods initiated its recalls in response to animal taste tests
and consumer complaints that dogs and cats were becoming seriously ill or dying after
consuming certain Menu Foods pet food products.

Our review focused on 5 of the 16 Class I pet food recalls: one small recall each by an import
firm and an import broker and the three Menu Foods recalls. The Chairman of the Senate
Committee on Agriculture, Nutrition, and Forestry requested this review.

OBJECTIVE

Our objective was to determine:

   •   what authority FDA has with respect to recalls of pet food and

   •   what procedures FDA has developed to implement its authority, whether FDA followed
       its procedures, and whether the procedures were adequate.

SUMMARY OF RESULTS

The results of our audit follow:

   •   FDA does not have statutory authority to require manufacturers to initiate pet food
       recalls. Therefore, the initiation of such recalls on the part of manufacturers or importers
       is voluntary. Furthermore, FDA issued its regulations as nonbinding recall guidance.
       Even if FDA were to require firms to follow certain procedures, FDA has no statutory
       authority to assess penalties for recall violations. However, when FDA believes that an
       article of food presents a serious health threat, the Public Health Security and
       Bioterrorism Preparedness and Response Act of 2002 provides additional authority to
       FDA to administratively detain food and obtain certain food records. Several bills
       proposed in the 110th session of Congress would have provided FDA with authority to
       mandate recalls and to dictate and enforce the terms of a recall.


                                                 i
   •   FDA has developed procedures for monitoring recalls and assessing a firm’s recall
       effectiveness. The procedures cover, among other activities, reviewing the firm’s recall
       strategy and recommending changes, inspecting the firm, conducting audit checks at
       selected distributors and retailers, and reviewing the firm’s status reports and assessing
       the results of the firm’s effectiveness checks of distributors and retailers as shown in the
       status reports. Although FDA’s oversight of the two small pet food recalls by an import
       firm and an import broker was generally adequate, FDA did not always follow its
       procedures in overseeing the Menu Foods recalls. Furthermore, FDA’s procedures were
       not always adequate for monitoring recalls as large as those of Menu Foods.

The ultimate responsibility for removing the contaminated pet food rested with Menu Foods and
its distributors and retailers. Nevertheless, FDA’s lack of authority, coupled with its sometimes
lax adherence to its recall guidance and internal procedures and the inadequacy of some of those
procedures, limited FDA’s ability to ensure that contaminated pet food was promptly removed
from retailers’ shelves.

RECOMMENDATIONS

We recommend that FDA:

   •   consider seeking statutory authority to mandate food recalls and to assess penalties for
       noncompliance with the terms of recalls;

   •   amend its regulations or, if necessary, seek additional legislative changes to establish
       mandatory requirements for firms to follow in conducting recalls, including:

       o a written recall strategy,

       o prompt initiation of effectiveness checks, and

       o periodic status reports that contain all specified information, including the number
         and results of the firm’s effectiveness checks;

   •   comply with its procedures for monitoring recalls; and

   •   revise its procedures to require FDA staff to:

       o document the approved recall strategy, including the specified effectiveness check
         levels and target dates for initiating and completing effectiveness checks,

       o promptly determine the accuracy of the firm’s recall list,

       o ensure that audit checks are performed as assigned and that the results are accurately
         and completely documented,

       o separately tabulate the results of audit checks for each recalling firm, and


                                                 ii
       o follow up with the firm to ensure that it has completed the specified level of
         effectiveness checks in a timely manner.

FOOD AND DRUG ADMINISTRATION COMMENTS

In comments on our draft report, FDA agreed or agreed in principle with all of our
recommendations. FDA’s comments are included in their entirety as Appendix B.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                       Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Food and Drug Administration ................................................................1
              Recall Guidance .......................................................................................1
              Recalls of Melamine-Contaminated Pet Food .........................................3
              Congressional Request.............................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................4
               Objective ..................................................................................................4
               Scope........................................................................................................4
               Methodology ............................................................................................4

RESULTS OF AUDIT...................................................................................................5

          RECALL AUTHORITY......................................................................................6
               Authority for Mandatory Recalls .............................................................6
               Authority for Voluntary Recalls ..............................................................6
               Bioterrorism Act ......................................................................................7
               Government Accountability Office Report..............................................7
               Proposals To Increase Recall Authority ..................................................7

          RECALL PROCEDURES ...................................................................................8
               Reviewing the Recall Strategy and Recommending Changes.................8
               Inspecting the Firm ..................................................................................10
               Conducting Audit Checks To Determine Recall Effectiveness...............11
               Reviewing Status Reports and Assessing the Results of
                 Effectiveness Checks ............................................................................13

          CONCLUSION....................................................................................................14

          RECOMMENDATIONS.....................................................................................14

          FOOD AND DRUG ADMINISTRATION COMMENTS .................................15

APPENDIXES

          A – TIMELINE OF RECALL EVENTS

          B – FOOD AND DRUG ADMINISTRATION COMMENTS




                                                                   iv
                                        INTRODUCTION

BACKGROUND

Food and Drug Administration

Pursuant to the Federal Food, Drug, and Cosmetic Act (the Act) (21 U.S.C. § 301 et seq.), the
Food and Drug Administration (FDA) is responsible for safeguarding the Nation’s food supply
by ensuring that all ingredients used in food are safe and that food is free of disease-causing
organisms, chemicals, or other harmful substances. The Act defines food to include food given
to pets, livestock, and other animals. When a problem arises with a particular food, the
manufacturer or importer is responsible for voluntarily recalling the product, and FDA works
with the firm to develop and oversee a recall strategy.

FDA established regulations (21 CFR part 7) as nonbinding guidance that FDA and the recalling
firm should consider in planning and implementing a recall. This report refers to these
regulations as “recall guidance.” Recall guidance (21 CFR § 7.3(g)) defines a recall as a firm’s
removal or correction of a product that FDA considers to be a violation of the laws that it
administers.

Within FDA, the Center for Veterinary Medicine and the Office of Regulatory Affairs are
responsible for overseeing firm-initiated recalls of food for pets and livestock. The Office of
Enforcement, which is part of the Office of Regulatory Affairs, is responsible for providing
oversight of field activities and coordinating product recalls. The FDA district office in the
recalling firm’s geographical region is designated as the lead district and is responsible for
providing guidance to the firm and for monitoring day-to-day recall activities. The Office of
Enforcement and the FDA district offices consult and coordinate with the Center for Veterinary
Medicine.

Recall Guidance

Health Hazard Evaluation and Recall Classification

Recall guidance (21 CFR § 7.41) states:

       An evaluation of the health hazard presented by a product being recalled or
       considered for recall will be conducted by an ad hoc committee of . . . [FDA]
       scientists and will take into account, but need not be limited to, the following
       factors: . . . Assessment of the degree of seriousness of the health hazard to which
       the populations at risk would be exposed . . . . On the basis of this determination,
       the Food and Drug Administration will assign the recall a classification, i.e.,
       Class I, Class II, or Class III, to indicate the relative degree of health hazard of the
       product being recalled or considered for recall.

Class I indicates the highest degree of health hazard.




                                                  1
Recall Strategy

Recall guidance (21 CFR § 7.42) states: “. . . [a] recall strategy . . . will be developed by the
agency for . . . [an FDA]-requested recall and by the recalling firm for a firm-initiated recall . . . .
[FDA] will review the adequacy of a proposed recall strategy developed by a recalling firm and
recommend changes as appropriate.” The guidance recommends that a recall strategy address
the following elements:

    •   Depth of recall. The recall strategy “will specify the level in the distribution chain [i.e.,
        consumer level, retail level, or wholesale level] to which the recall strategy is to extend”
        based on the product’s degree of hazard and extent of distribution.

    •   Public warning. The recall strategy “will specify whether a public warning is needed” to
        alert the public that a product being recalled presents a serious health hazard.

    •   Effectiveness checks. The recall strategy “will specify the method(s)” that the recalling
        firm should use to conduct effectiveness checks of consignees (distributors and retailers) 1
        and the FDA-determined level of the checks. Effectiveness checks involve contacting
        distributors and retailers by visits, telephone calls, and/or letters to verify that they have
        received notification of the recall and have taken appropriate action. Effectiveness
        checks range from Level A (contacting 100 percent of the distributors and retailers) to
        Level E (conducting no effectiveness checks).

Recall Communications

Pursuant to 21 CFR § 7.49, a recalling firm is responsible for promptly notifying each of its
affected distributors and retailers in writing about the recall. This recall communication should
clearly identify the product being recalled; explain the reason for the recall; and instruct the
distributor or retailer to immediately stop distributing any remaining product and, when
appropriate, to notify its customers about the recall. The communication also should provide
instructions on what the distributor or retailer should do with the recalled product. Distributors
and retailers that receive a recall communication should immediately carry out its instructions.

Recall Status Reports

Pursuant to 21 CFR § 7.53, the recalling firm “is requested to submit periodic recall status
reports to the appropriate . . . [FDA] district office so that . . . [FDA] may assess the progress of
the recall.” In general, the recalling firm should submit recall status reports every 2 to 4 weeks.
The reports should include the number of distributors and retailers notified of the recall and the
date and method of notification, the number of distributors and retailers that did and did not
respond to the recall communication and the quantity of products on hand, the number of
products that the distributors and retailers returned or corrected, and the number and results of
the recalling firm’s effectiveness checks.


1
 Recall guidance (21 CFR § 7.3) defines a consignee as any party that received, purchased, or used the product
being recalled. This report refers to consignees as “distributors and retailers.”


                                                         2
Recalls of Melamine-Contaminated Pet Food

From October 2006 through September 2007, FDA’s Center for Veterinary Medicine oversaw 79
recalls, including 38 recalls of melamine-contaminated 2 pet food that began in March 2007.
According to FDA, it received approximately 18,000 consumer complaints from March through
May 2007 regarding melamine-contaminated pet food that was causing illness and death among
pets. The melamine-related recalls involved 27 firms and more than 1,000 products. FDA
classified 16 of these recalls as Class I recalls based on the toxic levels of melamine in the
sampled pet food.

According to FDA, the melamine-related pet food recalls were unprecedented in size and scope
and involved FDA’s central office and all 19 district offices, as well as State health agencies in
all 50 States and the District of Columbia. A total of approximately 400 FDA employees were
involved in, among other activities, collecting samples of pet food for analysis, analyzing the
contaminated pet food to determine the causative agents, monitoring the effectiveness of the
recalls, preparing customer complaint reports, issuing press releases, and posting and updating
consumer warnings on the FDA Web site.

Three recalls by one manufacturer, Menu Foods Limited (Menu Foods), accounted for
approximately 89 percent of the 666 products in the 16 Class I pet food recalls. The first two
recalls, which Menu Foods initiated on March 16, 2007, included almost 2.4 million cases of dog
and cat food that had been distributed throughout the United States and Canada under various
labels. The third recall, initiated on April 10, 2007, involved cat food that was not on the initial
recall list.

Menu Foods initiated its recalls in response to animal taste tests and consumer complaints that
dogs and cats were becoming seriously ill or dying after consuming certain Menu Foods pet food
products. Menu Foods traced the illnesses and deaths to pet food products that it had
manufactured with raw material from a new supplier. On March 23, 2007, FDA’s investigation
found the presence of melamine, an unapproved substance, in the pet food. On May 1, 2007,
according to FDA, further FDA research found that the melamine in the pet food had combined
with small quantities of cyanuric acid to form crystals that had been linked to acute renal failure
in pets. FDA traced the melamine to wheat gluten and rice protein imported from two Chinese
suppliers that used melamine to increase the apparent protein content of these products.
Appendix A presents a timeline of the major events in the Menu Foods recalls.

Congressional Request

Concerned about FDA’s handling of recent recalls of contaminated food and the increase in
imports from countries that may have lower food safety standards than those of the United
States, the Chairman of the Senate Committee on Agriculture, Nutrition, and Forestry requested
this review.

2
 Melamine is a triazine derivative that has various industrial uses, including as a binding agent and flame retardant.
Melamine and its related compounds have no approved use as ingredients in animal or human food in the United
States. For the purpose of this report, the term “melamine-contaminated pet food” refers to products contaminated
with both melamine and its related compounds, including cyanuric acid, ammeline, and ammelide.


                                                           3
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine:

   •    what authority FDA has with respect to recalls of pet food and

   •    what procedures FDA has developed to implement its authority, whether FDA followed
        its procedures, and whether the procedures were adequate.

Scope

Our review focused on 5 of the 16 Class I pet food recalls involving imported products
contaminated with melamine. These five recalls accounted for approximately 90 percent of the
products in the Class I recalls of melamine-contaminated pet food during our review period
(March through September 2007).

To gain an understanding of FDA’s recall process, we conducted a limited review of FDA’s
internal controls as they related to our objective.

We performed our fieldwork at FDA’s offices in Rockville, Maryland, and Lenexa, Kansas, from
August 2007 through April 2008.

Methodology

To accomplish our objective, we:

   •    reviewed Federal laws, regulations, policies, and procedures related to FDA’s recall
        authority;

   •    discussed with FDA personnel the information maintained in FDA’s Recall Enterprise
        System database (recall database) and compared the number of all Class I recalls of pet
        food containing contaminated imported products in the recall database with the number
        of such recalls in the Center for Veterinary Medicine’s records to ensure the
        completeness of the recall database;

   •    identified from the recall database 16 Class I recalls during our audit period that involved
        pet food that contained imported products contaminated with melamine and judgmentally
        selected for review five recalls: one small recall each by an import firm and an import
        broker and the three recalls by Menu Foods;

   •    evaluated the adequacy of FDA’s procedures for monitoring the effectiveness of the
        recalls;

   •    evaluated the timeliness and completeness of FDA’s recall monitoring activities;


                                                 4
    •   checked the accuracy and completeness of FDA’s audit check forms and tabulated the
        results; and

    •   interviewed FDA officials involved in the recall process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                          RESULTS OF AUDIT

The results of our audit follow:

    •   FDA does not have statutory authority to require manufacturers to initiate pet food
        recalls. Therefore, the initiation of such recalls on the part of manufacturers or importers
        is voluntary. Furthermore, FDA issued its regulations as nonbinding recall guidance.
        Even if FDA were to require firms to follow certain procedures, FDA has no statutory
        authority to assess penalties for recall violations. However, when FDA believes that an
        article of food presents a serious health threat, the Public Health Security and
        Bioterrorism Preparedness and Response Act of 2002 (Bioterrorism Act) 3 provides
        additional authority to FDA to administratively detain food and obtain certain food
        records. Several bills proposed in the 110th session of Congress would have provided
        FDA with authority to mandate recalls and to dictate and enforce the terms of a recall.

    •   FDA has developed procedures for monitoring recalls and assessing a firm’s recall
        effectiveness. The procedures cover, among other activities, reviewing the firm’s recall
        strategy and recommending changes, inspecting the firm, conducting audit checks at
        selected distributors and retailers, and reviewing the firm’s status reports and assessing
        the results of the firm’s effectiveness checks of distributors and retailers as shown in the
        status reports. Although FDA’s oversight of the two small pet food recalls by an import
        firm and an import broker was generally adequate, FDA did not always follow its
        procedures in overseeing the Menu Foods recalls. Furthermore, FDA’s procedures were
        not always adequate for monitoring recalls as large as those of Menu Foods.

The ultimate responsibility for removing the contaminated pet food rested with Menu Foods and
its distributors and retailers. Nevertheless, FDA’s lack of authority, coupled with its sometimes
lax adherence to its recall guidance and internal procedures and the inadequacy of some of those
procedures, limited FDA’s ability to ensure that contaminated pet food was promptly removed
from retailers’ shelves.




3
 Title III, P.L. No. 107-188 (amending §§ 304 and 414 of the Federal Food, Drug, and Cosmetic Act (21 U.S.C.
§§ 334(h) and 350(c)).


                                                       5
RECALL AUTHORITY

Authority for Mandatory Recalls

No statute authorizes FDA to require manufacturers to recall food except for infant formula.
Pursuant to 21 U.S.C § 350a(e), FDA may mandate a recall of infant formula if it determines that
an adulterated or misbranded infant formula “presents a risk to human health.” In addition, FDA
is authorized to require manufacturers to recall medical devices and biological products.

Federal requirements for infant formula recalls (21 CFR part 107, subpart E) state that when
FDA determines that an adulterated or misbranded infant formula presents a risk to human
health, the manufacturer will immediately take all actions necessary to recall the formula. The
recalling firm must, among other requirements, provide FDA with an initial report on the recall
within 14 days after the recall initiation and with a status report at least every 14 days thereafter.
All status reports must include the number and results of the firm’s effectiveness checks and
describe the steps that the firm has taken since the prior status report (21 CFR § 107.240).

Authority for Voluntary Recalls

Recall guidance states that food recalls are voluntary. If a firm does not initiate a recall, FDA
has the authority to request one. If a firm refuses FDA’s request for a recall, FDA has no
authority to order a recall or to impose sanctions on the firm. However, FDA may take legal
action on the underlying violation that led to its recall request by, for example, seizing the
product or obtaining an injunction against the firm (21 U.S.C. §§ 334 and 332).

Recall guidance (21 CFR § 7.40(a)) states:

       Recall is a voluntary action that takes place because manufacturers and
       distributors carry out their responsibility to protect the public health and well-
       being from products that present a risk of injury or gross deception or are
       otherwise defective. This section and §§ 7.41 through 7.59 recognize the
       voluntary nature of recall by providing guidance so that responsible firms may
       effectively discharge their recall responsibilities. These sections also recognize
       that recall is an alternative to . . . [an FDA]-initiated court action for removing or
       correcting violative, distributed products by setting forth specific recall
       procedures for the . . . [FDA] to monitor recalls and assess the adequacy of a
       firm’s efforts in recall.

As established by FDA, the food recall procedures in 21 CFR part 7 are guidance, and FDA has
no authority to require compliance. In the preamble to the 1978 final rule for 21 CFR part 7
(43 Fed. Reg. 26202, 26202-03 (June 16, 1978)), the Commissioner stated that FDA has the
authority to prescribe mandatory procedures and requirements for firms and FDA to follow in
carrying out voluntary recalls. At that time, however, the Commissioner chose not to fully
exercise the authority and issued the recall procedures as guidance instead of legally binding
regulatory requirements.




                                                  6
Bioterrorism Act

The Bioterrorism Act provides additional authority to improve the safety of the Nation’s food
supply when FDA believes that an article of food presents a serious health threat. Section 303 of
the Bioterrorism Act (21 U.S.C. § 334(h)) authorizes an officer or qualified employee of FDA to
order the detention of an article of food that is found during an inspection, examination, or
investigation if the individual has credible evidence or information indicating that the article of
food “presents a threat of serious adverse health consequences or death to humans or animals.”
This “administrative detention” period may not exceed 30 days. Section 306 (21 U.S.C.
§ 350c(a)) authorizes FDA to require certain food manufacturers, packers, and distributors,
among others, to maintain specified records and to make the records available to FDA in a food
emergency, such as a recall, no more than 24 hours after the receipt of an official request.

On April 16, 2007, FDA invoked section 306 of the Bioterrorism Act to ensure continued access
to Menu Foods’ records and information pertaining to its pet food recalls.

Government Accountability Office Report

An October 2004 Government Accountability Office (GAO) report 4 identified weaknesses in the
U.S. Department of Agriculture’s (USDA) and FDA’s food recall programs. The report stated:
“We believe that addressing the problems we have identified could raise the likelihood that
recalled food will be removed from the marketplace more promptly and completely. However,
these corrective steps, while necessary, will still leave fundamental vulnerabilities because the
agencies lack specific recall authority available to other agencies with consumer safety
responsibilities.” The report recommended that Congress consider legislation that would give
USDA and FDA the authority to issue mandatory recalls, to establish recall requirements, and to
impose monetary penalties or seek fines or imprisonment for firms that do not follow food recall
requirements.

Proposals To Increase Recall Authority

In the November 2007 “Action Plan for Import Safety,” the Secretary of Health and Human
Services outlined recommendations for improving import safety, including authorizing FDA to
issue a mandatory recall of food products when a voluntary recall is not effective. In April 2008
testimony before the House Committee on Energy and Commerce, Subcommittee on Health,
FDA requested both authority to mandate recalls and enhanced access to food records during
emergencies.

Several bills introduced during the 110th session of Congress would have provided FDA, through
the Secretary, with authority to mandate food recalls and to dictate and enforce the terms of
recalls. As of September 2008, the proposed legislation included:

       •   The FDA Food Safety Modernization Act: Under this bill, the Secretary would allow a
           firm to voluntarily cease distribution and recall an adulterated or misbranded product
           before the Secretary would be authorized to issue an order to cease distribution and begin
4
    “USDA and FDA Need To Better Ensure Prompt and Complete Recalls of Potentially Unsafe Food” (GAO-05-51).


                                                       7
       a recall. For a mandated recall, the Secretary would specify a timetable, set requirements
       for periodic status reports from the firm, and notify consumers. Any firm that did not
       comply with a recall order would be subject to civil monetary penalties.

   •   The Food and Drug Import Safety Act of 2007: This bill would authorize the Secretary
       to order a firm to stop distributing a food product that caused serious adverse health
       consequences or death and to implement a recall of the food involved. The Secretary
       would set a timetable for the recall and require progress reports. Any person who
       introduced adulterated food into interstate commerce would be subject to civil monetary
       penalties.

   •   The SAFER Meat, Poultry, and Food Act of 2007: This bill would authorize the
       Secretary to mandate a food recall after first allowing the firm to take voluntary action to
       cease distribution and recall the adulterated or misbranded items. For mandatory recalls,
       the Secretary would set a timetable and require the firm to submit progress reports and to
       notify the public. Any firm that did not comply with these requirements would be subject
       to civil monetary penalties.

RECALL PROCEDURES

FDA’s recall procedures are generally limited to monitoring recalls and assessing a firm’s
overall recall effectiveness. These procedures, which are based on the recall guidance in 21 CFR
part 7, are detailed in FDA’s “Regulatory Procedures Manual” (Procedures Manual) and
“Investigations Operations Manual” (Operations Manual). FDA has also developed the
publication “Product Recalls, Including Removals and Corrections” to assist firms in handling
recalls. This publication includes a checklist of documentation and other information that FDA
uses to evaluate, classify, monitor, and audit recalls.

FDA’s monitoring and assessment activities include (1) reviewing the firm’s recall strategy and
recommending changes, (2) inspecting the firm, (3) conducting audit checks at selected
distributors and retailers, and (4) reviewing the firm’s status reports and assessing the results of
its effectiveness checks. Our review of the three Menu Foods recalls found that FDA did not
always follow its procedures for carrying out these activities and that FDA’s procedures
sometimes were inadequate for monitoring and assessing the effectiveness of recalls.

Reviewing the Recall Strategy and Recommending Changes

Food and Drug Administration Procedures

The Procedures Manual, chapter 7-6-4, states: “Each recall is unique and requires its own recall
strategy . . . . [FDA] will review the firm’s recall strategy for voluntary recalls . . . . The recall
strategy includes the type [of] notification and depth of the recall. It also contains the depth and
level of . . . [effectiveness] checks and the need for public warning. Recall strategies are based
on the individual recall circumstances and are not necessarily dependent on the recall
classification.”




                                                  8
The Procedures Manual, chapter 7-6-4-2, states that in reviewing or developing a recall strategy,
FDA should consider the health hazard evaluation, type or use of the product, ease in identifying
the product, degree to which the product’s deficiency is obvious to the consumer or user, amount
of product remaining unused in the marketplace, product distribution pattern, and continued
availability of essential products. For firm-initiated recalls, FDA should review the firm’s recall
strategy and recommend changes as necessary.

The Procedures Manual, chapter 7-7-1, states that when FDA has assigned the recall
identification number, classified the recall, and reviewed the firm’s recall strategy, the FDA lead
district should promptly send the firm a notification letter specifying the depth and level of the
effectiveness checks (from 0 percent to 100 percent of distributors and retailers) that the firm
should conduct to ensure that distributors and retailers have removed all contaminated products
from their shelves.

Adherence to Procedures

FDA generally followed its procedures for obtaining the information needed to evaluate a recall
strategy. Although Menu Foods did not provide (and was not required to provide) FDA with a
written recall strategy, FDA obtained most of the recommended recall information from Menu
Foods orally and through other means, such as emails and handwritten notes. FDA also worked
with Menu Foods to develop public warnings and to determine the depth of the recall (i.e., the
level of the distribution chain to which the recall would extend).

Contrary to its procedures, however, FDA did not ensure that Menu Foods’ recall strategy
included the FDA-assigned depth and level of effectiveness checks that Menu Foods would
conduct. In addition, FDA did not promptly send Menu Foods a notification letter specifying the
level of the effectiveness checks. According to FDA, it confirmed its understanding that Menu
Foods would conduct effectiveness checks in a March 23, 2007, email to Menu Foods.
However, this email did not specify that FDA expected Menu Foods to conduct effectiveness
checks of 100 percent of its distributors and retailers. FDA did not send Menu Foods a
notification letter containing this information until September 21, 2007, 6 months after the
recalls began.

Adequacy of Procedures

FDA’s procedures did not ensure that Menu Foods submitted a written recall strategy. We
acknowledge that because FDA issued its regulations as guidance, FDA cannot require a firm to
comply with any of its recall procedures. However, FDA could not provide evidence that it had
requested a written recall strategy from Menu Foods. The lack of a formal, written recall
strategy containing agreed-upon deadlines and targets limited FDA’s ability to review and
comment on Menu Foods’ proposed recalls and to monitor the recalls throughout their course.
For example, although FDA stated that it had orally instructed Menu Foods to conduct
effectiveness checks at the 100-percent level, it had no written documentation that Menu Foods
had incorporated this level of checks into its recall strategy.




                                                 9
Inspecting the Firm

Food and Drug Administration Procedures

The Operations Manual, chapter 7.2, states that if FDA determines that a recalled product has a
reasonable probability of causing serious illness or death, it should inspect the recalling firm.
The inspection should include a review of the firm’s batch records, processing logs, and other
types of production records to identify contaminated lots and associated lots (7.2.1.5). FDA also
should obtain a complete list of all shipments of the contaminated lots being recalled (7.2.1.1.5).

Adherence to Procedures

FDA generally followed its procedures for inspecting Menu Foods and for collecting the
required information. On March 15, 2007, Menu Foods first notified FDA that it was recalling
pet food because of the death and illness of pets that participated in taste tests of food made with
ingredients from a new supplier. The next day, FDA began its inspection at a Menu Foods plant
that received the contaminated ingredient (wheat gluten). As part of the inspection process, FDA
performed a comprehensive plant inspection; obtained samples of pet food for testing; and
obtained detailed product information, including information on manufacturing processes,
production records (e.g., batch logs, production dates, and product labels), raw material listings,
names of ingredient suppliers and related manufacturing plants, and Menu Foods’ laboratory test
results.

Adequacy of Procedures

FDA’s inspection procedures did not ensure that FDA verified the accuracy and completeness of
Menu Foods’ recall list. 5 Specifically, FDA’s procedures did not require that FDA promptly
reconcile the firm’s production records to its raw material lists to ensure that the recall list
covered all contaminated lots.

Because FDA did not perform a detailed reconciliation of Menu Foods’ production records and
raw material lists at the time of the March 2007 inspection, FDA was unaware that the
production records did not document the transfer of 11,000 pounds of contaminated wheat gluten
to a Canadian plant before the recalls began. FDA remained unaware of the transferred wheat
gluten until April 9, 2007, when FDA learned that the University of California at Davis had
traced the death of a pet to a brand of Menu Foods pet food that was not on the recall list. On
April 11, 2007, FDA began an indepth reconciliation of Menu Foods’ records and confirmed that
the Canadian plant had produced melamine-contaminated pet food that was not on the recall list.

Although Menu Foods was responsible for providing FDA with accurate and complete records, a
timely reconciliation of Menu Foods’ records would have helped FDA determine that the records
provided were not complete and that not all contaminated pet food lots had been recalled.



5
A firm’s recall list contains product descriptions, expiration dates, container types and sizes, and Universal Product
Codes.


                                                         10
Conducting Audit Checks To Determine Recall Effectiveness

Food and Drug Administration Procedures

The Procedures Manual, chapter 7-8-1, states that FDA will conduct audit checks of distributors
and retailers to assess the effectiveness of a firm’s recall effort. The Operations Manual, chapter
7.3.2.1, defines an audit check as a visit, telephone call, or letter (or a combination thereof) from
FDA staff to a distributor or retailer to verify that the distributor or retailer has been notified of
the recall and has taken appropriate action. The Procedures Manual, chapter 7-8-2-1, states that
FDA determines the type of contact. In addition, chapter 7-7-2-1 states that district offices
should consider notifying State and local officials of recall actions that may be pertinent to them
and requesting assistance from State and local officials as needed in conducting or auditing
recalls.

The Operations Manual, chapter 7.3.2.4, states that inspectors should obtain 10 specific items of
information and any additional information that the lead district or home district requests. The
specific information to obtain includes the amount of recalled product on hand when the retailer
was notified of the recall, the amount returned and method of return, the amount destroyed and
method of destruction, and the amount presently on hand. 6 If FDA specifies that audit checks
should be accomplished through visits, inspectors should visit the storage sites and check the
shelf stock to ensure that all recalled products have been identified, removed, and quarantined.
Inspectors should record this information on a store visit form (7.3.2.5).

The Procedures Manual, chapter 7-8-2-4, states that the district office will evaluate audit check
reports to ensure that they are adequate. If the reports contain insufficient information, the
district office will advise the supervisory investigator.

The Procedures Manual, chapter 7-8-2-6, states that if FDA determines at any time during its
audit of a recall that the recall effort is ineffective, FDA should discuss its findings with the
recalling firm. The Operations Manual, chapter 7.3.2.6, states: “If your audit check discloses
recalled product being held for sale, . . . document the responsibility for failure to follow recall
instructions. This is particularly important if the account received the recall notice and ignored
it.”

Audit Checks of the Menu Foods Recalls

For the Menu Foods recalls, FDA conducted one round of audit checks (the first round) followed
by an expanded round of audit checks that FDA termed a “national audit blitz” (the blitz).

During the first round, 6 of the 19 FDA district offices visited a total of 64 retail stores.
According to FDA officials, FDA decided to expand the first round of audit checks because of
continuing consumer complaints. FDA officials stated that the blitz was an innovative attempt to

6
 The other specific information consists of the name and title of the person interviewed; whether the store received,
understood, and followed the notification instructions; the date and method of notification; the date of anticipated
return or destruction; whether a subrecall was conducted and, if so, a list of retailers from which the subrecall check
locations were selected; and whether injury complaints had been received and, if so, details of the complaints.


                                                          11
supplement traditional audit checks prompted by the unprecedented size and scope of the pet
food recalls.

The blitz covered the melamine-contaminated pet food recalled by six firms, including Menu
Foods. The methodology for the blitz involved requesting the health agencies of the 50 States
and the District of Columbia to randomly select and visit 20 retail stores each. FDA also
required its 19 district offices to select and visit 20 retail stores each. The blitz covered a total of
1,407 stores. FDA requested that both the State health agencies and the district offices
“generally” follow the audit check instructions in the Operations Manual, chapter 7.

Adherence to Procedures

During the first round, FDA did not always adhere to its procedures when conducting audit
checks at the 64 retail stores:

    •   Of the 64 store visit forms, 40 were missing one or more pieces of required information,
        such as the amount of product that the store had removed from its shelves and the amount
        still remaining on its shelves.

    •   FDA did not tabulate the results of the 64 store visits and therefore could not adequately
        assess the effectiveness of the recall effort as required. Our tabulation of the first round
        of audit checks, based on the information available on the store visit forms, indicated that
        20 percent of the stores visited still had recalled products on their shelves.

FDA appeared to have adhered to its “general” procedures for carrying out the blitz.

Adequacy of Procedures

Although FDA’s procedures were generally adequate for carrying out the first round of audit
checks, they were not always adequate for carrying out the blitz:

    •   FDA’s procedures did not ensure that the blitz covered all States. Specifically, 16 State
        health agencies did not participate in the blitz. Although FDA’s district offices included
        retail stores in 12 of these States in their samples, four States were not covered by a State
        health agency or by an FDA district office.

    •   FDA’s procedures did not ensure the accuracy or utility of the effectiveness rate that
        FDA calculated based on the results of the blitz. FDA officials concluded from the store
        visit forms that the pet food recalls by the six firms included in the blitz were 95 percent
        effective. However, we were unable to substantiate this rate or to determine the specific
        rate applicable to the Menu Foods recalls because:

            o FDA’s procedures did not require FDA to follow up with State health agencies
              that did not submit or did not accurately complete store visit forms. State health
              agencies did not submit store visit forms to document the results of their audit



                                                  12
                     checks at 204 of the 1,407 stores included in the blitz. 7 In addition, some of the
                     1,195 store visit forms that inspectors submitted did not contain all requested
                     information or contained misclassified results. For example, the store visit forms
                     for 31 stores classified the recalls as effective even though the stores (1) had not
                     received notice of the recalls or (2) said that they had received notice of the
                     recalls but had not removed the products from their shelves.

                 o FDA’s procedures did not require FDA to separately tabulate the audit check
                   results for the six firms included in the blitz. Because FDA commingled the
                   results for the six firms in calculating a 95-percent effectiveness rate, we were
                   unable to determine what percentage of the rate was attributable to Menu Foods.

Reviewing Status Reports and Assessing the Results of Effectiveness Checks

Food and Drug Administration Procedures

The Procedures Manual, chapter 7-6-4-1, states that the firm’s recall strategy should include
conducting effectiveness checks. Chapter 7-8-2 specifies that FDA should closely monitor
recalls and assess the firm’s recall efforts. FDA district office personnel are responsible for the
timely receipt and review of the firm’s monthly status reports, which should include the results
of the firm’s effectiveness checks, and for the timely completion of the recall.

Adherence to Procedures

FDA did not always follow its procedures for monitoring Menu Foods’ status reports and
effectiveness checks. Had FDA done so, it would have noticed that the status reports for the first
3 months of the recalls (April−June 2007) did not include information about the firm’s
effectiveness checks. In fact, Menu Foods did not begin conducting effectiveness checks until
June 22, more than 3 months after initiating the recalls. The following examples illustrate the
importance of conducting and monitoring effectiveness checks in a timely manner:

       •    A retail store that was first notified of the recall on March 18, 2007, still had 185 cans of
            recalled pet food on its shelves when FDA conducted its audit check on April 16, almost
            a month after the store was notified. FDA’s records did not indicate why the store did not
            remove the product until FDA conducted its audit check.

       •    A retail store that was part of a large national chain had 470 pouches and cans of recalled
            pet food on its shelves when, as part of the blitz, the District of Columbia’s health agency
            conducted an audit check on April 13, 2007, almost 4 weeks after the recalls began.
            Although the health agency confirmed that Menu Foods had sent a recall notice to the
            store’s national headquarters, the store manager stated that the store had not received the
            notice. The store removed the products from its shelves during the health agency’s audit
            check.



7
    In addition, FDA inspectors did not submit store visit forms for 8 of the 1,407 stores in the blitz.


                                                              13
Adequacy of Procedures

FDA’s procedures did not ensure that Menu Foods conducted effectiveness checks in a timely
manner and completed the specified level of checks. Although FDA’s procedures state that
effectiveness checks should be part of a firm’s recall strategy, the procedures do not specify
when the firm should begin and complete the effectiveness checks. FDA’s procedures also offer
no guidance as to when and how FDA should follow up with the firm to ensure that it has
completed the specified level of effectiveness checks.

Menu Foods’ status report for July 2007 indicated that a third-party contractor conducted 2,937
effectiveness checks from June 22 to July 12. Menu Foods’ monthly status reports through
October 2007 indicated that Menu Foods did not conduct any additional effectiveness checks
after July 2007. According to FDA officials, FDA had specified during recall strategy
discussions that Menu Foods should conduct effectiveness checks at 100 percent of its affected
distributors and retailers, which FDA estimated to total more than 10,000. Thus, Menu Foods
conducted effectiveness checks at fewer than 30 percent of its distributors and retailers. We
found no evidence that FDA had followed up with Menu Foods to determine why the firm had
not promptly initiated and completed the specified level of effectiveness checks.

CONCLUSION

According to FDA staff, FDA’s lack of statutory authority limited the quantity and timeliness of
the information that it received from Menu Foods during the pet food recalls. In the 110th
session of Congress, several bills were proposed that would have provided FDA with authority to
mandate recalls and to dictate and enforce the terms of a recall. Although FDA currently lacks
authority to order a recall, it could issue mandatory requirements to improve the efficiency and
effectiveness of recalls that firms voluntarily initiate. However, FDA has thus far chosen not to
make its recall guidance mandatory.

Menu Foods and its distributors and retailers were ultimately responsible for the timely
completion of the recalls. Nevertheless, FDA’s inability to enforce its recall guidance, along
with its sometimes lax adherence to its recall guidance and internal procedures and the
inadequacy of some of those procedures, limited FDA’s ability to ensure that contaminated pet
food was promptly removed from retailers’ shelves.

RECOMMENDATIONS

We recommend that FDA:

   •   consider seeking statutory authority to mandate food recalls and to assess penalties for
       noncompliance with the terms of recalls;

   •   amend its regulations or, if necessary, seek additional legislative changes to establish
       mandatory requirements for firms to follow in conducting recalls, including:

       o a written recall strategy,


                                                14
       o prompt initiation of effectiveness checks, and

       o periodic status reports that contain all specified information, including the number
         and results of the firm’s effectiveness checks;

   •   comply with its procedures for monitoring recalls; and

   •   revise its procedures to require FDA staff to:

       o document the approved recall strategy, including the specified effectiveness check
         levels and target dates for initiating and completing effectiveness checks,

       o promptly determine the accuracy of the firm’s recall list,

       o ensure that audit checks are performed as assigned and that the results are accurately
         and completely documented,

       o separately tabulate the results of audit checks for each recalling firm, and

       o follow up with the firm to ensure that it has completed the specified level of
         effectiveness checks in a timely manner.

FOOD AND DRUG ADMINISTRATION COMMENTS

In comments on our draft report, FDA agreed with our recommendation to consider seeking
statutory authority to mandate food recalls and to assess penalties for noncompliance with the
terms of recalls. FDA also agreed to amend its regulations or, if necessary, seek additional
legislative changes to establish mandatory requirements for firms to follow in conducting recalls.
FDA agreed in principle with our recommendations to comply with its procedures for monitoring
recalls and to revise its recall procedures.

FDA’s comments are included in their entirety as Appendix B.




                                                15
APPENDIXES
                                                                             APPENDIX A
                                                                               Page 1 of 2

                       TIMELINE OF RECALL EVENTS
                           March−November 2007


                                  March 15
Menu Foods Limited (Menu Foods) notifies the Food and Drug Administration (FDA)
                       of a potential pet food problem.
                                         ↓
                                   March 16
                FDA begins an inspection of a Menu Foods facility.

               Menu Foods initiates the first two recalls of pet food.
                                         ↓
                                   March 23
                    FDA begins the first round of audit checks.

               FDA finds melamine in wheat gluten used in pet food.
                                         ↓
                                    March 28
            The FDA district office recommends a Class I designation.
                                         ↓
                                    April 6
             FDA begins the second round of audit checks (the blitz).
                                         ↓
                                      April 10
  Menu Foods issues a third recall of pet food manufactured at a different facility.
                                         ↓
                                    April 11
      FDA begins a detailed reconciliation of the contaminated wheat gluten.
                                         ↓
                                     April 16
            FDA completes the first round of audit checks and the blitz.
                                         ↓
                                       May 1
      FDA finds that the combination of melamine and cyanuric acid has been
                        linked to acute renal failure in pets.
                                         ↓
                              June 22 – July 12
                    Menu Foods performs effectiveness checks.
                                                                       APPENDIX A
                                                                         Page 2 of 2

                                    ↓
                              September 21
             FDA classifies the Menu Foods recalls as Class I.
                                    ↓
                               November 17
FDA issues the health hazard evaluation report on contaminated wheat gluten.
                                                                                                                                            APPENDIXB
                                                                                                                                            APPENDIX B

                                                                                                                                              Page
                                                                                                                                               Page 11of3
                                                                                                                                                      of3
( ..
..~

                                          DEPARTMENT
                                          DEPARTMENT OF OF HEALTH
                                                           HEALTH &&HUMAN
                                                                    HUMAN SERVICES
                                                                          SERVICES
.
'ó
  ~..
      ;t"r..ød
    ". ..+L'..y.ic........~...,;... .
                                                                                                 Food
                                                                                                                                       Food and
                                                                                                                                              and Drug
                                                                                                                                                    Drug Administration
                                                                                                                                                         Administration
                                                                                                                                       SilverSj:lrirlg;
                                                                                                                                       Silver Spring, MDMD 20993
                                                                                                                                                           20993




                                         Date:
                                         Date:              June 16, 2009

                                                            June 16, 2009

                                         To:                Inspector General

                                         From:              Princìpal Deputy Commissioner
                                                            Principal        Commissioner

                                         Subject:           FDA's      General
                                                            FDA's General           Comments
                                                                          Comments to                    OIGof
Draft Report, Review ofFoodand
                                                                                                     to Review
                                                                                      OIG Draft Report,                               Food and Dtug
                                                                                                                                               Dtug
                                                            Administration '.'i. Monitothzgo.fPet
                                                            Administration's                      Food Recall (A~OI-07-0I5()3)
                                                                                 MonìtOl'ingofPet F'ood        (A~OI-07-01503)



                                         FDA      is providing
                                         FDA is providing           the
                                                          the attached    attached
                                                                       general comments general
                                                                                        töthe Offcecomments
                                                                                                    of
                                Inspector General's
                                                                                                                    tathe Office ofInspector     General's
                                         draft
                                         draft   report
                                                 report    entitled,    ReviewandpfFood
                                                           entitled, ReviewafFood               and Drug
                                                                                      Dl'ugAdministratiön       Adminjslratitm
                                                                                                          's Monitoring of       '.'I A10niwring afPet
                                                                                                                                                    Pel. H>od
                                                                                                                                                         Food
                                         Rec'all (A ..()J"07:'01503).
                                         Recáll (A'-01'-07~OI503).                                  .

                                         FDA     appreciates the
                                         FDA appreciates          oppartunityto
                                                             the opportul1ityto          reviewonand
                                                                                reviewandcol1l1ent this comment       on this draft report before it
                                                                                                        draft report before
                      it is
                                                                                                                                                     is


                                         published.




                                         Attadiment
                                         Attachment
                                                                                                                           APPENDIXB
                                                                                                                           APPENDIX B
                                                                                                                             Page
                                                                                                                              Page22of3
                                                                                                                                    of3

            FDA's      General
            FDA's General           Comments
                          Comments to OIGDraftReport,to  OIGDraftReport,Review
                                                      Review of
                        ofFood
                                                                                           Food and
                                                                                                 and Drug
                                                                                                     Drug
                  Administi'ation',s         Monitoring
                   Administi"ation's Monitoring                of Pet Food Recall rA
                                                af Pet Food Recall
                  .. OI-07;.015Q3)
                                                                                   (A..OI-07-01503)

FDA         encountered
 FDA encountered      one of        one of the        largesnecalls
                                                 the largestrecálls          in itsduring
                                                                     ¡nits history     history
                                                                                            the petduring the petfood    food crisis
                                                                                                                                  crisis in
                                                                                                                                          in
 2007. This was a complex
 2007.    This  was  a  
           complex and multi-fàceted
                                                           multi-faceted investigation thatin.volved   thatirivolved not only recalls,
 butalso         development
 butalso development        of            of newnew     regulatory science
                                                       regulatory        science and  and novel approaches to'          to public health
                                                                                                                                      health
 protection
 protection efforts.  efforts.        FDA'
                            FDA' spriority      spriority during this
                                             during                              recaUwas
                                                                           this recaUwas   the
     the protection
                                                                                                         protection of   ofthepublic
                                                                                                                             the   public
 health,
 health,        and
                and its itsactions
                              actions     refleCted
                                    reflected              thispriority.
                                                this foremost     foremost
                                                                         Becausepriority.          Because of the unprecedented size
                                                                                 of the unprecedented                                        size
 and scope of the recall, FDA deemed
 and   scope          of    the recall,  FDA            deemedititneèessary
                                                                        necessary and    and appropriate
                                                                                                  appropriate to  to seek
                                                                                                                      seekthe thevoluntary
                                                                                                                                    voluntary
 assistanc,e
 assistance of        ofthe      states
                            the states  as aas    a leveraged
                                              leveraged  
           approach to
                                                                     approach        to more
                                                                                         more broadly
                                                                                                    broadly audit
                                                                                                               audit thethe recalls.
                                                                                                                             recalls. These
 measures,
 measures, of         of necessity,
                            necessity, went went
                                              
        beyond the
                                                       beyond       the Agency'sexisting
                                                                          Agency'sexistÎngptöcedures    procedurestotoenable enablethe the
Agency' to focus its limited resources to effectively 'and efficiently address
 Agency    to  focus   its  limited  resources   to                      effectively  'and  efficiently            address the
the public

,health
 health threatthreat       thatextraordinary
                    that this     this extraordinary              outbreakpresented.
                                                 outbreakpresented.  FDA's
                         FDA's experience
                                                                                                               experience in     in this
 incident.
 incident         also has
                  also       haspro\lided
                                  provided the Agency    Agency with   withiniportant
                                                                              important lessoIls  lessons that
                                                                                                            thatitwill
                                                                                                                   itwil apply
                                                                                                                            apply in the
 future,        including
 tùture, including                 implementing
                          implementing  processes to improveprocesses to irnprdveitscoordinationits coordination with states in the
 context oflarge
 context          oflarge recalls.

OIG Recommendation
OIG

 That
 That FDAFDA     consider
          consider              seeking
                    seeking statutory       statutory
                                      authority             authority
                                                 to mandatefood recalls
 fo mandate/ood recalls and
                                                                                                  and  to a:;'sess
                                                                                                       to a::'sess

penaltiesjc)t noncompliance withthe
penaltiesfiJt noncompliance                   with          terms
                                                      the terms of      recalls and
                                                                     o/recalls   andarnendits
                                                                                     amend its regulations   or. ~f
                                                                                               regulations or,    tf
 necessmy.
 necessClY. seekadditionallegisldtiVe
                   seekaddWoriallegisldttve changes         changesto    to establish
                                                                            establish mandatory  requirements for
                                                                                      mandatory requirements     for

.fIrms
firms to (0 follOW
             follow in conducting recalls,     recalls. including:
                                                            induding:                                            .

 •· a writen
        a written  recallstrate,(,T);
                       recallstrafegy;
 •· prompt
        prompt   initiatiol1        o.fe.fJe~tivene.~schecks~~ and
                     initiqliof'Jofe.fJeçtivenesschecks;               and
  • . .periodiC
  ·     peT'jOdie
                statussta(U.\'  reports.thafco/liain
                       reportsthatcoritain                     altspecffiedinlormation,
                                           all::pect/iedihformatlon, including          including the number
         and    results(~f
         andresults           thefitmf.\· effectiveness
                          af the./itm's       effectiveness cheek.check.



 FDA Response
     Response.

 FDA agrees with these recol1l1endations
                       recommendations and has
                                           hastestified
                                               testifiedto
                                                         to this
                                                             this effect
                                                                   effect at
                                                                          at Congressional
                                                                             Congressional
 hearings.

 OlG
 OlG Reeommeiidation
     Re~ommendation

  ThatFDA comply withits
 ThatPDA comply with its procedures

                          procedures.for monitoring recalls:
                                     for monitoring recalls: and
                                                             andrevise
                                                                 revise itsprocedures
                                                                        itsprocedures to
                                                                                       to
 require
 requireFDA   .Sklfrto.~
         FDA.s;ta(fto.~

 ·• document
      doctimenltheapptovedrecallstrategy, including
                 theapptovedtetallstrategy,         thespecifedelfectiveness.check
                                            including thespecijIedelfectfveness,check
       levels andtar;getdales
       levels                 forinitiating
              andtargetdatesfor    initidting and
                                              andcompleting
                                                  completingeffectiveness
                                                             effectiveness checks;

                                                                           checks;'
                     determine the accuracy
  • pr011iptlydelermine
 · promptly 
                                      oftheßrm's recall
                                           accuratyoflhejirm's recalllist:
                                                                      lis!:
 ·• ensure
       ensure that
                 thataudit
                        auditchecksarepëtformedas
                                 checksareperformedilsassigned
                                                           assignedandthat.theresults
                                                                     andthattheresultsare
                                                                                       are
       accurately
      accurately        and completely
                 and completely documented;
  documented: and
                                                          and
                                                                                                           APPENDIXB
                                                                                                           APPENDIX B

                                                                                                              Page 33 of3
                                                                                                             Page     of3


•· separately
      separately
               tabulate tabtilate    the results
                        the results o.faudit          o.faudit
                                             checks jòreach        checks for each recalling firm.
                                                            recallng

                                                                                             firm. andfollow
                                                                                                    andfollo-w up
                                                                                                                up

      with    thefirm
      with thefirm  to
    to ensure
                                ensure thatthat
                                            it   it has    completedthe
                                                     has completed      the specified
                                                                            specifed  levdo.feffectiveness
                                                                                      level af effectiveness checks
      ina
       ina timely
              timely manner.
                         manner.



FDA Response
FDA Response

FDA
FDA agrees agrees
              in      in principle:
                          principle      with this recorrrrèridation.
                                                        recommendation. In           In addition,
                                                                                         addition, thethe Agency
                                                                                                          Agency believes
                                                                                                                  believes that
in the interest ofprotecting the public
in  the     interest  of      protecting     the               healt1:l,
                                                    public health,  it mustithave
                                                                              must have the       latitude and
                                                                                            the latitude   and discretion to
address,the
address        the   complexities         of a globalized
                     complexities ofaglobalized   food supply chainfood    supply chain with innovative and
                                                                     with innovative

resourcefulapproaches,
resourceful approaches, and to use its   and     to usetoits
                                           experiences         experiences to further design
                                                           furer
                              design        imp lement new
                                                                                                         and implement
procedures
procedures           as appropriate.
                    .as




                                                                                                                                  22
